IN THE SUPREME COURT OF THE UNITED STATES

No.__
Lon nie Lee Owen s ,

Applicant,
v.
Mike Parri

s , ward

en

,

Respondent.
APPLICATION TO THE HON. SONIA SOTOMAYOR
FOR AN EXTENSION OF TIME WITHIN WHICH TO FILE
A PETITION FOR A WRIT OF CERTIORARI TO THE
UNITED STATES COURT OF APPEALS FOR THE SIXTH CIRCUIT

Pursuant to Supreme Court Rule 13(5), Lonnie Lee Owens hereby moves for
an extension of time of 30 days, to and including November 27, 2019, for the filing of
a petition for a writ of certiorari. Unless an extension is granted, the deadline for
filing the petition for certiorari will be October 28, 2019.
In support of this request, Applicant states as follows:
1.

The United States Court of Appeals for the Sixth Circuit rendered its

decision on July 30, 2019 (Exhibit 1). This Court has jurisdiction under 28 U.S.C.
§1254(1).
2.

This case involves an issue of importance under the Fifth, Sixth, and

Fourteenth Amendments: whether a sentencing enhancement imposed by a judge in
violation of Blakely v. Washington, 542 U.S. 296 (2004), can be harmless even if the
jury’s verdict suggested that it would have rejected the enhancement and the

enhancement required a subjective assessment of conflicting evidence. The Sixth
Circuit held that the answer is “yes,” creating a conflict with courts that have
identified errors as not harmless on comparable facts. This question has far-reaching
implications for other state prisoners who were sentenced under similar
unconstitutional procedures.
3.

Applicant’s counsel has substantial briefing obligations in October and

November of this year, including briefs in this Court (Facebook u. DuguicL, No. 1715320 (9th Cir.), cert petition to be filed Oct. 18, 2019; and Moda Health Plan, Inc. v.
United States, No. 18-1028, merits reply brief due Nov. 20, 2019), a brief in the U.S.
Court of Appeals for the Sixth Circuit (Desai v. Charter Commons, Nos. 19-5466 &
19-5467, reply brief for appellant/response brief for cross-appellee due Nov. 18, 2019),
a brief in the Western District of Kentucky (NHS Management LLC v. U.S. Dep’t of
Health & Human Servs., No. 19-cv-5168, brief in opposition to cross-motion for
summary judgment/reply in support of motion for summary judgment due Nov. 15,
2019), and an opposition to a motion to dismiss in a pending arbitration due Nov. 21,
2019.
4.

In light of these existing deadlines, an extension would greatly assist in

addressing the issues raised by this petition.
WHEREFORE, for the foregoing reasons, Applicant requests that an extension
of time to and including November 27, 2019, be granted within which Applicant may
file a petition for a writ of certiorari.

2

Respectfully submitted,

Meg an MAVol d

ÜÜrCP

Counsel of Record
KIRKLAND & ELLIS LLP
1301 Pennsylvania Avenue, NW
Washington, DC 20004
(202) 389-5000
megan.wold@kirkland.com
Counsel for Applicant

October 14, 2019

3

